0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Petition for Writ of Certiorari in Axon
Enterprise, Inc. v. Federal Trade Commission, et al.,
was sent via Next Day Service to the U.S. Supreme
Court, and via e-mail service to the following parties
listed below, this 20th day of July, 2021:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents
Paul D. Clement
Counsel of Record
Erin E. Murphy
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
, Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 20, 2021.

y Triplett Morgan
Becker Gallagher Legal Pu lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

